ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY, SUITE 1800
SAN DIEGO, CA 92101
P.O. BOX 85266
SAN DIEGO, CA 92186-5266

Public: (619) 738-9000
Telephone: (619) 738-9231
Facsimile: (619) 645-2012
E-Mail: Randall.Einhorn@doj.ca.gov

June 15, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Martin James Kipp v. Ron Broomfield, Acting Warden, No. 20-8093

Dear Mr. Harris:
This office represents the respondent in the above-captioned case. The petition for
certiorari was filed on May 18, 2021, and the response is currently due on June 21. Pursuant to
Rule 30.4, I respectfully request a thirty-day extension of time, to July 21, 2021, in which to file
the response. This extension is requested in order to better enable preparation of a response that
respondent believes would be most helpful to the Court.
Petitioner’s counsel of record, Mark Drozdowski, has advised me that he has no
opposition to this request. No prior extensions have been requested.
Sincerely,
/s/ Randall D. Einhorn
RANDALL D. EINHORN
Deputy Attorney General
For
cc:

ROB BONTA
Attorney General

Mark R. Drozdowski (Counsel for Petitioner)

